                

                

                     U.S. ENVIRONMENTAL PROTECTION AGENCY 

                     OFFICE OF INSPECTOR GENERAL 




                     Examination of Costs Claimed
                     Under American Recovery and
                     Reinvestment Act Cooperative
                     Agreement 2A-97706701 Awarded
                     to Grace Hill Settlement House,
                     St. Louis, Missouri

                     Report No. 13-R-0367                    August 30, 2013




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                               Brad Jones
                                                   Lela Wong
                                                   Michael Owen
                                                   Patrick McIntyre




Abbreviations

CA                   Cooperative Agreement
CFR                  Code of Federal Regulations
DEQ                  Diesel Emission Quantifier
DERA                 Diesel Emissions Reduction Act
DFH                  Direct Fire Heater
EPA                  U.S. Environmental Protection Agency
FTE                  Full Time Equivalent
FY                   Fiscal Year
GH                   Grace Hill Settlement House
ODC                  Other Direct Costs
OIG                  Office of Inspector General
OMB                  Office of Management and Budget
RFP                  Request for Proposal
VIN                  Vehicle Identification Number


Cover photo:	    School bus retrofitted under the cooperative agreement.
                 (EPA OIG photos taken in St. Louis, Missouri)




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  email:     OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue, NW
  fax:       202-566-2599                                       Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                           13-R-0367
                                                                                                     August 30, 2013
                        Office of Inspector General


                        At a Glance

Why We Did This Review              Examination of Costs Claimed Under
The U.S. Environmental              American Recovery and Reinvestment Act
Protection Agency Office of         Cooperative Agreement 2A-97706701 Awarded to
Inspector General conducted
this examination of the costs
                                    Grace Hill Settlement House, St. Louis, Missouri
claimed by Grace Hill
Settlement House under               What We Found
American Recovery and
Reinvestment Act cooperative        GH’s financial management system did not meet federal standards. In particular:
agreement 2A-97706701.
The OIG conducted this                  	   Procurements did not meet the competition or cost and price analysis
examination to determine                     requirements of the Code of Federal Regulations in 40 CFR §30.43 and
whether the costs claimed were               §30.45.
reasonable, allocable, and              	   The contract administration system did not meet the requirements of
allowable in accordance with                 40 CFR §30.47.
applicable federal requirements         	   Unallowable costs were not segregated and financial management data
and the terms and conditions of              were not properly supported as required under 40 CFR §30.21 and
the CA. The OIG also reviewed                2 CFR Part 230.
GH’s compliance with selected               Labor charges did not comply with the requirements of 2 CFR Part 230.
Recovery Act requirements and               Cash draws did not meet immediate cash needs requirement and were
accomplishment of the                        not properly documented as required under 40 CFR §30.22 and §30.21.
objective of the CA.
                                    As a result of the issues noted, we questioned $1,615,343 of the $2,250,031
This report addresses the           claimed under the CA. In addition, due to lack of adequate documentation from
following EPA Goal or               GH, we were unable to determine whether GH accomplished the objective of the
Cross-Cutting Strategy:             CA or met the job reporting requirements of Recovery Act Section 1512.

 Taking action on climate           Recommendations
  change and improving air
  quality.                          We recommend that the Region 7 regional administrator disallow questioned
                                    costs of $1,615,343 and recover $1,423,028 of that amount under the CA. We
                                    also recommend that, prior to any future EPA awards, the regional administrator
                                    verify that GH has adequate controls related to such issues as procurement,
                                    contract administration, cost allowability, labor charges, and cash draws. In
                                    addition, we recommend that the regional administrator verify that GH reported
                                    the number of jobs created and retained in accordance with Recovery Act
                                    requirements and Office of Management and Budget guidance. We also
                                    recommend that the regional administrator verify that the vehicles GH reported
                                    as retrofitted under the CA were completed in accordance with workplan.
For further information, contact
                                    GH disagreed with our recommendations. GH believed the contract costs were
our Office of Congressional and
Public Affairs at (202) 566-2391.   fair and reasonable, no federal funds were over-drawn, and it has exceeded the
                                    emission objective of the CA. GH believed no costs should be recovered, with an
The full report is at:              exception to a limited amount of personnel costs. Region 7 did not comment on
www.epa.gov/oig/reports/2013/       the draft report.
20130830-13-R-0367.pdf
                          UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                       WASHINGTON, D.C. 20460


                                                                                     THE INSPECTOR GENERAL


                                             August 30, 2013

MEMORANDUM

SUBJECT:       Examination of Costs Claimed Under American Recovery and Reinvestment Act
               Cooperative Agreement 2A-97706701 Awarded to Grace Hill Settlement House,
               St. Louis, Missouri
               Report No. 13-R-0367

FROM:          Arthur A. Elkins Jr.

TO:            Karl Brooks, Regional Administrator
               Region 7

This is our report on the subject examination conducted by the Office of Inspector General of the
U.S. Environmental Protection Agency. This report contains findings that describe the problems the OIG
has identified and corrective actions the OIG recommends. This report represents the opinion of the OIG
and does not necessarily represent the final EPA position. In accordance with established audit-
resolution procedures, EPA managers will make final determinations concerning matters in this report.

Due to the length of the recipient’s comments and the need to redact the sensitive information,
appendices A and B are presented in separate files.

Action Required

In accordance with EPA Manual 2750, you are required to provide us your proposed management
decision on the findings and recommendations contained in this report before you formally complete
resolution with the recipient. Your proposed management decision is due in 120 days, or on
December 30, 2014. To expedite the resolution process, please email an electronic version of your
proposed management decision to adachi.robert@epa.gov.

Your response will be posted on the OIG’s public website, along with our memorandum commenting on
your response. Your response should be provided as an Adobe PDF file that complies with the
accessibility requirements of Section 508 of the Rehabilitation Act of 1973, as amended. The final
response should not contain data that you do not want to be released to the public. If your response
contains such data, you should identify the data for redaction or removal. This report will be available at
http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Richard Eyermann, acting
assistant inspector general for the Office of Audit, at (202) 566-0565 or eyermann.richard@epa.gov;
or Robert Adachi, product line director, at (415) 947-4537 or adachi.robert@epa.gov.
Examination of Costs Claimed Under American Recovery and                                                                 13-R-0367
Reinvestment Act Cooperative Agreement 2A-97706701
Awarded to Grace Hill Settlement House


                                  Table of Contents 

Chapters
   1    Independent Accountant’s Report...................................................................                        1


   2    Introduction ........................................................................................................     4


                Purpose ......................................................................................................    4     

                Background ................................................................................................       4     


   3    Results of Examination – Costs Claimed ........................................................                           5


                Recommendation .......................................................................................            7     

                Recipient Comments ...................................................................................            7     

                OIG Response .............................................................................................        8     


   4    Financial Management System Did Not Meet Federal Standards..................                                             10 


                Procurements Did Not Meet Competition Requirements ............................                                  10 

                Procurements Did Not Meet Cost and Price Analysis Requirements .........                                         12 

                Contract Administration Did Not Meet Federal Requirements ....................                                   13 

                Costs Claimed Included Ineligible and Unsupported Costs.........................                                 15 

                Labor Charges Did Not Comply With Federal Requirements ......................                                    16 

                Cash Draws Did Not Comply With Federal Requirements ..........................                                   17 

                Conclusion...................................................................................................    18     

                Recommendation ........................................................................................          18     

                Recipient Comments ...................................................................................           19     

                OIG Response .............................................................................................       19     


   5    Compliance With Recovery Act Requirements ..............................................                                 21 


                Recommendation ........................................................................................          21     

                Recipient Comments ...................................................................................           22     

                OIG Response .............................................................................................       22     


   6    Meeting the Objective of the CA .......................................................................                  23 


                Lack of Adequate Verifiable Details in Final Progress Report ....................                                23 

                Not All Retrofitted Vehicles Were Available for Inspection ..........................                            23 

                GH Did Not Consistently Document Work Completion Verification .............                                      24 

                Conclusion ..................................................................................................    25     

                Recommendation .......................................................................................           25     

                Recipient Comments ...................................................................................           25     

                OIG Response .............................................................................................       26


   Status of Recommendations and Potential Monetary Benefits ..............................                                      27 



                                                         - continued -
Examination of Costs Claimed Under American Recovery and                                                                13-R-0367
Reinvestment Act Cooperative Agreement 2A-97706701
Awarded to Grace Hill Settlement House



Appendices
   A    GH’s Comments on the Draft Report ...............................................................                       28


   B    OIG Evaluation of GH’s Comments .................................................................                       29


   C    Distribution ........................................................................................................   30

                                 Chapter 1

               Independent Accountant’s Report
            As part of our continued oversight of the assistance agreements the U.S.
            Environmental Protection Agency awarded under the American Recovery and
            Reinvestment Act of 2009, we have examined the costs claimed under
            cooperative agreement 2A-97706701, awarded to Grace Hill Settlement House.
            We conducted the examination to determine whether the costs claimed under the
            CA were allowable in accordance with the Code of Federal Regulations under
            2 CFR Part 230, Cost Principles for Non-Profit Organizations, and 40 CFR Part
            30, Uniform Administrative Requirements for Grants and Agreements with
            Institutions of Higher Education, Hospitals, and Other Non-Profit Organizations,
            as well as the terms and conditions of the CA. We also reviewed GH’s
            accomplishment of the objective of the CA and compliance with the following
            Recovery Act requirements:

                  Buy American requirements under Section 1605. 

                  Davis-Bacon Act wage requirements under Section 1606. 

                  Job reporting requirements under Section 1512. 


            The CA covered the period June 1, 2009, through June 30, 2011. By receiving the
            award, GH accepted responsibility for compliance with the requirements stated
            above. Our responsibility is to express an opinion on GH’s cost claim and
            compliance based on our examination.

            Our examination was conducted in accordance with the Government Auditing
            Standards issued by the Comptroller General of the United States and the
            attestation standards established by the American Institute of Certified Public
            Accountants. We examined, on a test basis, evidence supporting management’s
            assertions and performed such other procedures as we considered necessary under
            the circumstances. We believe our examination provides a reasonable basis for
            our opinion.

            We conducted our fieldwork from January 31, 2012, to April 17, 2013.
            We performed the following steps:

                  Reviewed the EPA project and grant files to obtain an understanding of
                   the project.
                  Interviewed GH personnel to obtain an understanding of the project as
                   well as the recipient’s policies and procedures.
                  Reviewed GH’s supporting documents for cash draws and costs claimed
                   under the CA.
                  Reviewed evidence for work completion and conducted site visits to verify
                   work completion.


13-R-0367                                                                                  1
               	 Reviewed evidence for compliance with Recovery Act and other federal
                  requirements.

            GH is responsible for establishing and maintaining effective internal control over
            compliance with the requirements of 40 CFR Part 30, 2 CFR Part 230, Recovery
            Act, and the terms and conditions of the CA. In planning and performing our
            examination, we considered GH’s internal control over compliance with the
            requirements listed above as a basis for designing our examination procedures for
            the purpose of expressing our opinion on compliance, but not for the purpose of
            expressing an opinion on the effectiveness of internal controls over compliance.
            Accordingly, we do not express an opinion on the effectiveness of GH’s internal
            control.

            Our consideration of internal control over compliance with the above
            requirements was for the limited purpose described in the preceding paragraph
            and was not designed to identify all deficiencies in internal control over
            compliance that might be significant deficiencies or material weaknesses;
            therefore, there can be no assurance that all deficiencies, significant deficiencies
            or material weaknesses have been identified.

            A significant deficiency is a deficiency in internal control, or combination of
            deficiencies, that adversely affects that entity’s ability to initiate, authorize,
            record, process, or report data reliably in accordance with the applicable criteria
            or framework, such that there is more than a remote likelihood that a misstatement
            of the subject matter that is more than inconsequential will not be prevented or
            detected. A material weakness is a significant deficiency, or combination of
            significant deficiencies, that results in more than a remote likelihood that material
            misstatement of the subject matter will not be prevented or detected.

            Our examination disclosed the following material weaknesses in GH’s financial
            management system:

                 Procurements did not meet the competition or cost and price analysis
                  requirements of 40 CFR §30.43 and §30.45.
               	 The contract administration system did not meet 40 CFR §30.47
                  requirements.
                Unallowable costs were not segregated and financial management data
                  were not properly supported as required under 40 CFR §30.21 and 2 CFR
                  Part 230.
               	 Labor charges did not comply with 2 CFR Part 230 requirements.
               	 Cash draws did not meet immediate cash needs requirements and were not
                  properly documented as required under 40 CFR §30.22 and §30.21.

            As a result of the issues noted above, we questioned $1,615,343 of the $2,250,031
            claimed under the CA. In our opinion, because of the effect of the issues described
            above, the costs claimed do not meet, in all material respects, the requirements of


13-R-0367                                                                                          2
            40 CFR Part 30, 2 CFR Part 230, and the terms and conditions of the CA for the
            period ended June 30, 2011.

            In addition, due to lack of adequate documentation from GH, we were unable to
            verify whether GH accomplished the objective of the CA or met the job reporting
            requirements of Section 1512 of the Recovery Act.




            Robert K. Adachi
            Director, Forensic Audits
            August 30, 2013




13-R-0367                                                                                    3
                                   Chapter 2

                                   Introduction
Purpose
            The EPA Office of Inspector General conducted this examination to determine
            whether the costs claimed under the CA were reasonable, allocable, and allowable
            in accordance with the applicable federal requirements and the terms and
            conditions of the CA. The OIG also reviewed GH’s compliance with selected
            Recovery Act requirements and accomplishment of the objective of the CA.

Background
            The Diesel Emission Reduction Act was signed into law in August 2005 under
            Title VII, Subtitle G, of the Energy Policy Act of 2005. DERA authorized $200
            million per year from fiscal years 2007 through 2011 (or a total of $1 billion) for
            the EPA to fund programs to achieve significant reductions in diesel emission
            from fleets operating in areas designated by the agency as poor air quality areas.
            Congress appropriated a total of $219.1 million for the EPA under DERA for FYs
            2008 through 2011. Congress appropriated an additional $300 million to the EPA
            in FY 2009 for DERA assistance agreements under the Recovery Act.

            The EPA awarded the CA on July 20, 2009, to GH under the Recovery Act. The
            purpose of the award was to provide emission reduction technology for delivery
            trucks, long-haul trucks, school buses, tugboats, fire engines, ambulances, airport
            support equipment, dump trucks, and street sweepers. The technology used in this
            project was expected to save 87,884 gallons of diesel fuel per year, help
            companies retain current employees, and create new jobs. This project was
            expected to reduce air pollution, resulting in benefits to the health of residents and
            workers in the St. Louis region.

            The EPA awarded the CA under 40 CFR Part 30. The grant budget and project
            period was from June 1, 2009, to June 30, 2011. Estimated total project cost is
            $2,256,420, consisting of federal share of $2,000,000 and required recipient
            match of $256,420. The final federal financial report submitted by GH on
            September 29, 2011, shows total project costs of $2,250,031, consisting of federal
            share of $1,985,679 and recipient matches of $264,352. The $264,352 included
            required matches and voluntary matches.




13-R-0367                                                                                        4
                                             Chapter 3

                 Results of Examination – Costs Claimed
          Our examination disclosed that GH’s financial management system did not meet federal
          standards. Specifically, we identified the following material weaknesses:

               Procurements did not meet the competition or cost and price analysis requirements of
                40 CFR §30.43 and §30.45.
               The contract administration system did not meet 40 CFR §30.47 requirements.
               Unallowable costs were not segregated and financial management data were not
                properly supported as required under 40 CFR §30.21 and 2 CFR Part 230.
               Labor charges did not comply with 2 CFR Part 230 requirements.
               Cash draws did not meet immediate cash needs requirements and were not properly
                documented as required under 40 CFR §30.22 and §30.21.

          As a result, we questioned $1,615,343 of the $2,250,031 claimed under the CA. We
          summarize the costs claimed and questioned below:

       Table 1: Summary of questioned costs
                                                                         Costs questioned
                                                   Amount
                  Cost category                    claimed           Ineligible       Unsupported        Note

        Personnel                                     $70,870                     -          64,617        1
        Fringe benefit costs                            15,300                               14,841        1
        Contract costs                              2,091,009             61,450          1,443,922        2
                                                                1
        Other direct costs                           (16,496)              2,430                 429       3
        Indirect costs                                  91,037           27,654                            4
        Costs incurred in excess of                    (1,689)
        claimed amount
        Total project costs                        $2,250,031             91,534          1,523,809
        Total costs questioned                      1,615,343
        Allowable project costs                       634,688
        Allowable federal share (88.65%)              562,651
        Cumulative cash draw                        1,985,679
        Amount due EPA                             $1,423,028

       Sources: Amounts claimed are from GH’s accounting records and the final federal financial report GH
       submitted to the EPA under the CA. Costs questioned are based on OIG’s analysis of the data.




1
 Actual amount of other direct costs claimed is $28,907. The negative amount shown above is due to other direct
costs of $45,403 being misclassified as contract costs in GH’s accounting records and in the federal financial report.


    13-R-0367                                                                                                        5
            Note 1: Fringe Benefits

            We question personnel costs of $64,617 and the associated fringe benefit costs of
            $14,841 as unsupported because GH’s labor charges for full-time employees did
            not comply with federal requirements. Chapter 4 of this report, in the section
            Labor Charges Did Not Comply With Federal Requirements, discusses this
            issue in more detail.

            Note 2: Contract Costs

            We question contract costs of $1,505,372 consisting of the following:
               Ineligible costs of $31,469 claimed in excess of the contract ceiling
                  amounts.
               Ineligible voluntary matches of $29,981.
               Unsupported costs of $1,273,788 due to noncompliance with federal
                  procurement regulations.
               Unsupported costs of $170,134 due to noncompliance with contract billing
                  terms.

               a)	 Costs Claimed In Excess of Contract Ceilings. We question ineligible
                   costs of $31,469 claimed in excess of the contract ceiling amounts because
                   these costs did not comply with contract terms. Detailed discussion of this
                   issue is in the chapter 4 section Contract Administration Did Not Meet
                   Federal Requirements, in the subsection Invoice Payments Not
                   Consistent With Contract Terms.

               b) Voluntary Matches. We question ineligible voluntary matches of $29,981
                  because these costs are included in the total project costs claimed but are
                  not eligible for federal cost sharing. Voluntary matches were established
                  under the contracts as costs to be paid by contractors in addition to the
                  amounts for EPA cost sharing.

               c)	 Noncompliance With Federal Procurement Regulations. We question
                   unsupported costs of $1,273,788 because GH did not comply with federal
                   procurement regulations. As a result, we are unable to determine whether
                   the costs claimed were fair and reasonable. Detailed discussion of this
                   issue is in the chapter 4 sections Procurements Did Not Meet
                   Competition Requirements and Procurements Did Not Meet Cost and
                   Price Analysis Requirements. Actual amount questioned due to
                   noncompliance with federal procurement regulations is $1,322,857.
                   However, $49,069 of the $1,322,857 is already included in items a) and b)
                   above. The net amount questioned for noncompliance with federal
                   procurement regulations is reduced to $1,273,788 to avoid duplication of
                   questioned costs.




13-R-0367                                                                                       6
               d)	 Noncompliance With Contract Billing Terms. We question unsupported
                   costs of $170,134 because contractor billings did not comply with contract
                   terms. Unit prices billed by the contractors and paid under the CA did not
                   match unit prices in the contracts. Detailed discussion of this issue is in the
                   chapter 4 section Contract Administration Did Not Meet Federal
                   Requirements, in the subsection Invoice Payments Not Consistent With
                   Contract Terms. Actual amount questioned for noncompliance with
                   billing terms is $210,062. Some of the $210,062 is already included in
                   items a) and c) above. The net amount questioned is reduced to $170,134
                   to avoid duplication of questioned costs.

            Note 3: Other Direct Costs

            We question ineligible other direct costs of $2,430 for items that are not allocable
            to or allowable under the CA. We also question ODCs of $429 for which GH
            could not provide supporting documentation. Detailed discussion of this issue is
            in the chapter 4 section Costs Claimed Included Ineligible and Unsupported
            Costs.

            Note 4: Indirect Costs

            Ineligible indirect cost of $27,654 is questioned because the $91,037 GH claimed
            exceeded the $63,383 approved in the grant budget. According to 40 CFR
            §30.25(c)(2)(iii), the recipient is required to obtain prior approval from the EPA
            when shifting costs between the budgeted indirect and direct costs. The EPA has
            confirmed that this approval was not requested by GH or granted by the EPA;
            therefore, the $27,654 is not allowable.

Recommendation
            We recommend that the Region 7 regional administrator:

               1.	 Disallow $1,615,343 in questioned costs and recover $1,423,028 of that
                   amount under the CA. If GH provides documentation that meets
                   appropriate federal requirements or demonstrates the fairness and
                   reasonableness of the contract prices, the amount to be recovered may be
                   adjusted accordingly.

Recipient Comments
            The OIG received comments on the draft report from GH on June 3, 2013.
            Region 7 did not provide any comments. We held an exit conference with GH and
            Region 7 on July 11, 2013, to discuss GH’s comments and our final position on
            the issues.




13-R-0367                                                                                       7
            GH disagreed with our recommendation to disallow and recover costs under the
            CA. GH believed the contract costs were fair and reasonable, no federal funds
            were over-drawn, and it has exceeded the emission objective of the CA. GH believed
            no costs should be recovered, with an exception for a limited amount of personnel
            costs. GH also submitted after-the-fact documentation prepared or obtained from
            its vendors and contractors attempting to support GH’s comments. GH’s complete
            written response is included in appendix A. Along with the response, GH
            provided 105 exhibits. Due to volume, exhibits are not included in the report, but
            are available upon request.

            GH provided additional comments on June 28, 2013, subsequent to the formal
            draft response. GH stated that we referred to the voluntary matches as amounts
            “paid” in excess of contract ceilings. GH said no part of the voluntary matches
            was actually paid. The costs were additional amounts over and above the project
            partners’ share of the contract prices, which the project partners absorbed.
            GH also disagreed with characterizing these costs as ineligible. GH believed the
            voluntary matches in excess of the contract ceilings should get “extra credit” and
            not bear on any cost recovery by GH or payment by the EPA. GH said it did not
            claim or receive cost recoveries or payments in excess of the contract amounts.

OIG Response
            GH’s response did not change our recommendation to question and recover costs.
            GH acknowledged that the labor and fringe benefit costs were charged based on
            budget allocation, which did not meet the federal requirement. Except for the
            camera and accessory costs of $200.76 and $11.98, GH’s comments and
            supporting documentation continued to show that ODCs questioned were
            unallowable and indirect costs claimed exceeded the amount established in the
            grant budget. However, GH provided a contract modification to support some of
            the costs not billed in accordance with contract terms. In addition, GH provided
            an adequate explanation on the nonresponsive bidder issue. We have adjusted our
            report and the recommended questioned costs and recovery amount to reflect
            these changes.

            The remaining response and documentation provided by GH on the procurement
            and contract administration issues were prepared during the draft report response
            period. These explanations and documentation did not exist at the time of
            procurement. Consideration of these after-the-fact documentation is within the
            discretion of EPA management and would require that the agency make an
            exception in accordance with 40 CFR §30.4.

            Details of our responses to GH’s comments are in appendix B.

            GH’s comments on the voluntary matches referred to the language in chapter 4
            section Contract Administration Did Not Meet Federal Requirements, in the
            subsection Invoice Payments Not Consistent With Contract Terms. We agreed


13-R-0367                                                                                        8
            with GH that these costs were not actually paid. However, the costs were claimed.
            In the final federal financial report, GH claimed “recipient share required” of
            $258,420 and total “recipient share of expenditures” of $264,352. In its
            accounting records, GH did not distinguish the “recipient share required” from the
            addition expenditures. The $264,352 included recipient matches incurred in
            excess of contract ceilings which carried over to the total project costs claimed of
            $2,250,031. Since voluntary matches and costs incurred in excess of contract
            ceilings are not eligible for federal cost sharing, these costs were appropriately
            classified as ineligible costs for federal cost share calculation. We have changed
            the report from voluntary matches “paid” to “claimed” in excess of contract
            ceilings.




13-R-0367                                                                                     9
                                      Chapter 4

           Financial Management System Did Not Meet 

                       Federal Standards

                GH’s financial management system did not meet federal standards. Specifically,
                our examination disclosed the following material weaknesses:

                     Procurements did not meet the competition or cost and price analysis
                      requirements of 40 CFR §30.43 and §30.45.
                    The contract administration system did not meet 40 CFR §30.47
                      requirements.
                   	 Unallowable costs were not segregated and financial management data
                      were not properly supported as required under 40 CFR 30.21 and 2 CFR
                      Part 230.
                    Labor charges did not comply with 2 CFR Part 230 requirements.
                    Cash draws did not meet immediate cash needs requirements and were not
                      properly documented as required under 40 CFR §30.22 and §30.21.

                As a result of the issues noted above, we questioned $1,615,343 of the $2,250,031
                claimed under the CA.
 
Procurements Did Not Meet Competition Requirements
                GH awarded five contracts for school bus retrofit, totaling $793,340, which did
                not comply with the federal competition requirements. The unit price, which was
                the same for all five contracts, was not based upon full and open competition.
                Although GH’s internal procurement policies and procedures complied with
                federal standards, GH’s staff did not always follow these procedures.

                Title 40 CFR §30.43 requires all procurement transactions to be conducted in a
                manner that provides, to the maximum extent practical, free and open
                competition. The regulation further states that the recipient should be alert for
                noncompetitive practices among contractors that may restrict or eliminate
                competition or otherwise restrain trade.

                GH’s procurement policy establishes the following price quotation or bidding
                requirement based on the purchase price:

                      Oral or written quotations from at least two responsible vendors for all
                       purchases in excess of $5,000 but less than $25,000.
                      Written quotations from at least two responsible vendors for all purchases
                       of at least $25,000 but less than $100,000.



    13-R-0367                                                                                       10
               	 Competitive proposals from at least three responsible vendors for all
                  purchases of $100,000 or more.

            Contract Price Was Not Competitively Bid

            The unit price used for the five contracts was not based on open competition.
            Instead, the unit price was based upon GH’s negotiations with the main project
            partner (owner of the vehicles to be retrofitted) and bidders subsequent to the
            open bid process.

            The five contracts were for the same type of work. The contracts were awarded to
            install direct fire heaters on school buses. GH’s initial request for proposal did not
            specify the type or model of DFH because GH and its main project partner were
            unclear as to the type and model of DFH needed. GH left the RPF open to let
            bidders propose the appropriate DFH types.

            Four companies submitted bids in response to the RFP. Each company bid for a
            varying number of buses and with different DFH models. Two days before the bid
            due date, the main project partner informed GH that only Webasto products were
            acceptable. According to GH staff, this decision was not communicated to the
            bidders. As it turned out, only two of the four bidders (who we will refer to as
            “Company A” and “Company B”) submitted bids using the Webasto DFH.
            Although Company A was the lowest bidder, in our opinion, the four bid prices
            were not comparable because the bid prices for the remaining two bidders were
            not based on the Webasto DFH.

            Before the contract was signed, the project partner requested that additional
            features be added to the DFH, including a flame resistant box, crash sensor, and
            driver option to turn on the heater. Instead of allowing all original bidders to
            resubmit bids for the Webasto DFH with these additional features, GH negotiated
            with the project partner and bidders to arrive at a unit price. GH also decided to
            split the work between two selected companies (Company A and another bidder,
            which we will refer to as “Company C”). Once the unit price and the quantity split
            were determined, GH asked the two selected companies to submit quotes for the
            determined quantities using the negotiated unit price. GH ultimately awarded the
            contracts to these two companies at the negotiated unit price.

            GH was unable to provide documentation to support the unit price negotiations or
            the division of work. During our fieldwork, GH staff verbally explained that the
            other two companies were not asked to rebid because Company B was late
            submitting its original bid and Company D had too much other work under the
            CA. In our opinion, Company B’s late submittal on the original bid should not
            have affected the rebid, as the rebid would have established a new bid due date.
            GH should have, at a minimum, allowed Companies A and C to competitively bid
            on the new specifications instead of using the negotiated unit price. Further, GH’s
            internal procurement policy required competitive proposals from at least three



13-R-0367                                                                                       11
             responsible vendors for all purchases of $100,000 or more. In this case, the initial
             award totaled $656,792, consisting of $567,162 awarded to Company A and
             $89,630 to Company C. Negotiating the unit price instead of obtaining bids from
             three responsible vendors violated GH’s internal policy. Since GH could not
             provide documentation to support the unit price, there is no assurance that the
             price was fair and reasonable. As a result, we question all costs claimed under the
             two contracts as unsupported costs.

             When additional school buses became available for the same type of retrofit, GH
             again split the work. The work was split among three companies – referred to
             above as Companies A, B, and C. GH explained that Company B, which was late
             submitting its original bid, came to the pre-bid meeting for the second phase of
             the bus retrofit and again expressed interest in the work; therefore, “in the spirit of
             fair and open process,” GH awarded Company B approximately 30 percent of the
             additional retrofit work. The three additional contracts were awarded at the same
             unit price as the original two contracts. We question the original contracts because
             there is no assurance that the unit price awarded was fair and reasonable. We also
             question the additional contracts for the same reason.

Procurements Did Not Meet Cost and Price Analysis Requirements
             GH’s procurements under the CA did not always meet the federal requirements
             for cost and price analysis. GH awarded four contracts without documented cost
             or price analysis. Title 40 CFR §30.45 requires some form of cost or price
             analysis to be made and documented in the procurement files for every
             procurement action. Regulations state that price analysis may be accomplished by
             comparing submitted price quotes with market prices and discounts. Cost analysis
             is achieved through review and evaluation of each cost element to determine
             reasonableness, allocability, and allowability. Without the required cost or price
             analysis, there is no assurance that the contract prices were fair and reasonable.
     
             Tugboat Retrofit Contracts

             GH awarded two sole source contracts to the owner of the tugboats, or the project
             partner, without evidence of cost or price analysis. GH awarded the two contracts,
             with not-to-exceed amounts of $79,895 and $286,999. Both contracts required
             replacement of a propulsion engine and an auxiliary engine. The $286,999
             contract also required replacement of a crane engine. The contract prices consist
             of costs for equipment purchases and project partner’s labor costs. There was no
             evidence of cost or price analysis on either of the contracts except for the cost of
             the auxiliary engine under the $286,999 contract. As a result, we question all costs
             claimed under the two contracts as unsupported costs, with the exception of the
             costs of the auxiliary engine for the $286,999 contract.

             GH explained that it made sense to award the contracts to the project partner
             because tugboats were the project partner’s main business. GH believed the price


 13-R-0367                                                                                       12
            was fair and reasonable because the project partner covered 25 percent of the
            costs.

            We disagree with GH. The fact that the project partner contributed 25 percent of
            the costs is irrelevant for determining the fairness and reasonableness of the
            contract price. The 25 percent match requirement was imposed by GH on several
            of the project partners. Regardless of who received the retrofit contract, the
            project partner would have to cover 25 percent of the costs. There were other
            projects under the CA in which the project partner was not the retrofitting
            contractor but paid the required 25 percent match.

            Food Delivery Truck Contract

            GH awarded a contract for food delivery truck engine replacements without cost
            or price analysis. GH received one bid for the work and awarded the contract to
            the only bidder. Without cost or price analysis, there is no assurance that the price
            was fair and reasonable. As a result, we question the costs as unsupported.

            Drills and Crane Engine Replacement Contract

            GH awarded a contract for engine replacement for two drills and a crane without
            cost or price analysis. GH received one bid for the work and awarded the contract
            to the only bidder at the bid price of $113,095.

            GH staff stated that they used quotes for other similar retrofits, such as the
            tugboat propulsion engines and crane, as comparisons. However, this does not
            meet the federal requirement. As stated above under Tugboat Retrofit Contracts
            subsection, GH has not demonstrated that the prices for the tugboat propulsion
            engine and crane engine replacements were fair and reasonable since they were
            procured without cost or price analysis. The engines used for the tugboats also
            appear to be of a different type and class from the engines under this contract. In
            addition, GH did not have documentation for the stated comparison, as required
            under 40 CFR §30.45 and §30.46. Without cost or price analysis, there is no
            assurance that the price was fair and reasonable. As a result, we question the costs
            as unsupported.

Contract Administration Did Not Meet Federal Requirements
            GH did not have an adequate contract administration system to ensure accuracy of
            contract information and contractor conformance with the terms, conditions, and
            specifications of the contracts, as required under 40 CFR §30.47. We noted that GH:

                  Awarded contracts that contained inaccurate information.
                  Approved and paid contractor invoices that were not consistent with
                   contract terms and conditions.
                  Awarded contracts that contained conflicting terms.


13-R-0367                                                                                      13
            Contracts Contain Inaccurate Information

            GH did not have adequate controls to ensure the accuracy of the contract terms.
            We noted transposition errors in the contract unit price and the not-to-exceed
            amount. In addition, we noted a quantity error. The contract stated 115 vehicles
            instead of 94 vehicles. Without accurate contract information, the recipient would
            not be able to ensure contractors perform services and bill according to the
            parties’ intent. This could subject the government to contract disputes.

            Although the errors noted above had not resulted in actual contract disputes or
            billing errors, as the contracts referenced the bid packages, contract terms need to
            be accurate in order to protect the interest of all parties affected by the contract,
            including the EPA.

            Invoice Payments Not Consistent With Contract Terms

            GH did not have adequate controls to ensure that invoice payments to contractors
            were consistent with contract terms and conditions. Our review of the invoices
            indicated that 3 of the 10 contracts awarded under the CA contained invoices that
            were not billed at the unit prices established in the contracts. These invoices totaled
            $210,062. GH paid the invoices and claimed the costs under the CA without
            adequately verifying the contract terms or modifying the terms as necessary. We also
            noted that the cumulative amounts claimed under 3 of the 10 contracts exceeded the
            contract ceilings. The excess amounts for the three contracts totaled $31,469.

            Title 40 CFR §30.47 requires a system for contract administration be maintained
            to ensure contractor conformance with the terms, conditions, and specifications of
            the contract and to ensure adequate and timely follow-up of all purchases. Title 40
            CFR §30.27 establishes appropriate federal cost principles for determining
            allowable costs for each type of entity incurring the costs. The contracts GH
            awarded under the CA were to commercial organizations. According to 40 CFR
            §30.27(a), allowable costs for commercial organizations are determined in
            accordance with the provisions of the Federal Acquisition Regulation at 48 CFR
            Part 31. Under 48 CFR §31.201-2(a)(4), a cost is allowable only when the cost
            complies with the terms of the contract. These costs did not comply with the
            contract terms and, therefore, are unallowable under the contracts or the CA.

            Contracts Contain Mixed Terms

            GH awarded 5 of the 10 contracts under the CA with conflicting contract terms.
            One section of the contract would show a lump sum price while another suggested
            a unit price agreement. For example, one section of the contract would state:

                   Grace Hill shall pay contractor, as full and complete compensation
                   for performance of the services required by this agreement, a total
                   sum of $____ as detailed in Schedule A.


13-R-0367                                                                                      14
            This language indicates a lump sum contract where GH would pay the contractor
            the stated sum for all of the tasks agreed to in Schedule A. However, the terms in
            Schedule A were for unit price contracts. Each line item in Schedule A of the
            contract showed a task to be performed and the number of units under the task
            with a not-to-exceed amount. Under a unit price contract, the contractor is paid at
            a fixed price per unit; the total amount may vary depending on the number of
            units provided but the total cost cannot exceed the not-to-exceed amount.

            The mixed contract terms become especially problematic when one line item in
            the contract contains multiple unit prices and when the invoiced unit prices do not
            match the contract prices. We were unable to determine whether the lump sum
            prices or the unit prices prevail. We contacted GH to obtain clarification. GH
            explained that these were intended to be unit price contracts.

            GH staff explained that the lump sum language was a standard template used for
            all contracts. Schedule A, with the unit price language, was added for the
            contracts under the CA with the intent to provide clarity on the scope of work and
            to specify the payment method for products or services. Due to the lack of
            contract knowledge by the procurement staff, the inconsistency in contract terms
            was not detected.

Costs Claimed Included Ineligible and Unsupported Costs
            GH did not have adequate controls to ensure that unallowable costs were
            segregated and that costs in the accounting system were properly supported. As a
            result, costs claimed included ineligible and unsupported costs. Title 2 CFR 230,
            Appendix A, Section A.2, requires that a cost be in accordance with the federal
            cost principles, allocable to the award, and adequately documented to be
            allowable under a federal award. Title 40 CFR §30.21 also requires the recipient
            to have written procedures to determine the reasonableness, allocability, and
            allowability of costs, and to ensure that costs are supported by source
            documentation.

            Aside from the ineligible and unsupported contract costs explained above, GH
            claimed ODCs that are ineligible or unsupported. ODCs represent all direct costs
            other than personnel, fringe benefits, and contract costs. Examples of ODCs are
            costs relating to travel, supplies, meetings, and allocation of property support and
            computer support costs. Total ODCs claimed under the CA was $28,907.

            After segregating the allocated property support and computer support costs, as
            cost allocations were reviewed separately, there were 60 ODC transactions
            included in the claim. We selected 17 of the 60 transactions for review. Of the
            17 transactions we reviewed, we identified nine ineligible cost transactions,
            totaling $2,430. The ineligible costs were incurred for items that were not
            allocable to the CA or for food items that are expressly disallowed under 2 CFR


13-R-0367                                                                                     15
            230, Appendix B, Section 14. In addition, we identified two transactions, totaling
            $429, for which GH could not provide supporting documentation.

            Although the unallowable ODC amount claimed under the CA is not material, the
            issue is significant when considering the number of transactions. Ineligible and
            unsupported costs represent about 65 percent of the transactions tested, or
            18 percent of the total transactions. It raises concern when the same issue had
            been raised by the EPA during its onsite review in November 2010. GH needs to
            implement adequate controls to ensure that this issue is resolved.

Labor Charges Did Not Comply With Federal Requirements
            GH’s labor charges for full-time employees did not comply with federal
            requirements. The recipient charged full-time labor costs to federal awards based
            on a budget percentage allocation rather than actual activities performed. In
            addition, hours recorded on timesheets were identified by funding source rather
            than by award. Title 2 CFR Part 230 requires that distribution of salaries and
            wages to federal awards be based on an after-the-fact determination of actual
            activities. We believe the noncompliance occurred because GH’s full-time
            employees lack understanding of the federal requirements for labor charges. As a
            result, we have no assurance that the labor and related fringe benefit costs of
            $79,459 claimed under the CA represent actual activities performed for the CA.

            Labor Charging Not Based on Actual Activities

            GH’s labor hours charged to the CA for its two full-time employees did not
            comply with federal requirements. GH allocated the employees’ work hours
            among the various projects based on budget percentages predetermined by GH’s
            management. Federal cost principles under 2 CFR Part 230, Appendix B,
            Section 8.m.(1), states “[the] distribution of salaries and wages to awards must be
            supported by personnel activity reports.” Section 8.m.(2) states “[reports]
            reflecting the distribution of activity of each employee must be maintained for all
            staff member (professional and nonprofessional) whose compensation is charged,
            in whole or in part, directly to awards.” The regulation further states “[the] reports
            must reflect an after-the-fact determination of the actual activity of each
            employee. Budget estimates (i.e., estimates determined before the services are
            performed) do not qualify as support for charges to awards.”

            Timesheets Did Not Track Hours by Award

            Timesheets for full-time employees did not track hours by award. Instead,
            timesheet hours recorded were grouped by funding source. GH had two active
            EPA CAs from July 20, 2009, to December 31, 2010. GH recorded hours for both
            of the CAs in the timesheets as one line item, labeled as “EPA.” These hours were
            then charged to the respective awards based on the budgeted percentages, as
            explained above. According to 2 CFR 230, Appendix A, Section A.2, a cost must


13-R-0367                                                                                      16
            be allocable to be allowable under an award. Section A.4 states that a cost is
            allocable to a particular cost objective, such as a grant, contract, project, service,
            or other activity, in accordance with the relative benefits received. Without
            tracking the hours by award, the recipient would not be able to show benefits
            received by a particular award.

            Lack of Understanding of Federal Requirements

            Based on discussions with GH staff and our review of their correspondence with
            EPA Region 7, it appears that GH lacked an understanding of the federal
            requirements for labor charging. During our fieldwork, GH staff stated that, for
            most of the grant period, they did not understand how to demonstrate to the EPA
            the breakdown of labor hours between projects. In the June 9, 2011, determination
            letter for the 2009 single audit findings and the November 2010 onsite
            administrative assistance review findings, an EPA Region 7 official stated that
            GH was advised during an onsite visit in 2008 that its timesheets did not comply
            with federal requirements. GH personnel assured the region that they would
            change the timesheet to reflect actual time spent on grant activities. In the June 9,
            2011, letter, the region asked GH to explain why corrections had not been
            completed. GH stated that staff and management were directed to complete
            separate timesheets for each contract, as opposed to modifying the timesheets to
            track all actual activities by award.

Cash Draws Did Not Comply With Federal Requirements
            GH’s advance cash draws did not meet the immediate cash needs requirements
            under 40 CFR §30.22 and the terms and conditions of the CA. GH also did not
            always adequately document its draw calculations as required under 40 CFR
            §30.21. As a result, GH was unable to provide adequate details for some of the
            cash draws or demonstrate when the excess amounts drawn were eventually
            credited to the EPA.

            Under 40 CFR §30.22(b), cash advances are limited to the minimum actual
            amounts immediately needed to carry out the purpose of the approved project.
            Title 40 CFR §30.22(b) also specifies that the timing and amount of cash
            advances shall be as close as is administratively feasible to the actual
            disbursements by the recipient. Administrative condition 2 of the CA reiterated
            this requirement. Title 40 CFR §30.21(b)(5) requires the recipient to have
            adequate procedures to minimize the time elapsing between the transfer of funds
            to the recipient from the U.S. Treasury payments for program purposes by the
            recipient. Title 40 CFR §30.21(b)(2) also requires the recipient to maintain
            records that adequately identify the source and application of funds for federally
            sponsored activities.

            We reviewed 8 of the 24 cash draws under the CA for compliance with the
            immediate cash need requirements. The draws reviewed were paid by the EPA


13-R-0367                                                                                        17
            prior to June 9, 2011, when GH was placed on a reimbursement method. Of the
            eight draws reviewed, three exceeded immediate cash needs. In addition, GH was
            unable to provide adequate details to support the calculation for one of the draws;
            therefore, we were unable to determine whether that cash draw met the immediate
            cash needs requirement.

            Based on our review, the cumulative cash draw amount did not exceed the
            cumulative expenditures; therefore, we did not question the cash draw in excess
            of immediate cash needs in the sample items. However, due to the lack of
            adequate documentation on draw calculations, GH was unable to explain when
            some of the over-drawn cash was used for program payments or credited to the
            EPA.

Conclusion
 
            Based on the issues noted above, GH’s financial management system did not meet
            the federal standards described under 40 CFR §30.21. As a result, we believe that
            the costs claimed do not meet, in all material respects, the applicable federal
            requirements and the terms and conditions of the CA.

Recommendation
            We recommend that the Region 7 regional administrator:

               2.	 Verify, prior to any future EPA award, that the recipient has adequate
                   controls to ensure that:

                       a)	 Procurement practices comply with federal regulations and the
                           company’s own procedures.

                       b) Contract personnel have adequate federal procurement knowledge.

                       c)	 Contract and bid information are accurate and complete.

                       d) Unallowable costs are properly segregated and financial
                          management data are properly supported.

                       e) Labor charges comply with federal requirements.

                       f)	 Cash draws meet immediate cash needs and documentation
                           requirements.




13-R-0367                                                                                     18
Recipient Comments
            GH disagreed with our recommendations. GH believed the contract costs paid
            were fair and reasonable, based on competition and cost and price analysis
            consistent with 40 CFR §30.43 and §30.45. GH also stated that it substantially
            met the contract administration requirements of 40 CFR §30.47 using its program
            manager’s spreadsheet to manage vendor invoices and payments and through its
            close-out documentation. GH stated that the questioned other direct cost amount
            was immaterial and the limited costs questioned were allocable and reasonable
            and not expressly disallowed. Although GH acknowledged that personnel and
            fringe benefit costs charged to the project for its two full-time employees were
            based on budget allocations, GH stated that these costs in large part represent
            actual activities performed for the CA. GH stated that with exception to one to
            two inadvertent accounting errors, it has drawn and credited the EPA as timely as
            administratively feasible. In addition, GH provided a listing of internal control
            improvements it has implemented in response to our findings and
            recommendations.

            GH also submitted documentation prepared or obtained from its vendors and
            contractors during the draft report response period attempting to support GH’s
            comments. GH’s complete written response is included in appendix A.

OIG Response
            GH’s response did not change our position on the recommendations. GH
            acknowledged that the labor and fringe benefit costs were charged based on
            budget allocation, which did not meet the federal requirement. Except for the
            camera and accessory costs of $200.76 and $11.98, GH’s comments and
            supporting documentation continued to show that ODCs questioned were
            unallowable. However, we modified some of the details on these issues. GH
            provided adequate explanation regarding the nonresponsive bidder issue under the
            Contract Administration Did Not Meet Federal Requirements section;
            therefore, we have removed the subsection Awarding Contracts to
            Nonresponsive Bidders from the report. GH also provided a contract
            modification to support some of the costs not billed in accordance with contract
            terms. Although we have adjusted the questioned amount based on GH’s
            response, the overall contract administration issue remained in the report since
            GH did not provide documentation to adequately address the issue of inaccurate
            information in the contracts, invoices not consistent with contract terms, and
            contracts containing conflicting contract terms.

            The remaining response and documentation provided by GH on the procurement
            and contract administration issues were prepared during the draft report response
            period. These explanations and documentation did not exist at the time of
            procurement. Consideration of the documentation is within the discretion of EPA



13-R-0367                                                                                    19
            management and would require that the agency make an exception in accordance
            with 40 CFR §30.4.

            Details of our responses to GH’s comments are in appendix B.




13-R-0367                                                                              20
                                  Chapter 5

      Compliance With Recovery Act Requirements
            As part of our examination, we verified GH’s compliance with Recovery Act Buy
            American requirements (Section 1605), Davis-Bacon Act wage requirements
            (Section 1606), and job reporting requirements (Section 1512). EPA Region 7
            determined that the Buy American and Davis-Bacon Act wage requirements do
            not apply to the CA. Based on our understanding of the nature of the work and
            our review of the Recovery Act requirements, we agree with Region 7’s
            determination and no further verification was deemed necessary.

            With regard to the job reporting requirement, GH was unable to provide
            supporting documentation for the number of jobs it reported as created and
            retained under Recovery Act Section 1512. The Recovery Act requires each
            recipient that receives Recovery Act funds from a federal agency to submit a
            quarterly report with an estimate of the number of jobs created and the number of
            jobs retained by the project. The Office of Management and Budget issued
            various guidance documents to implement the Recovery Act requirements. On
            December 18, 2009, OMB issued guidance M-10-8 to update, among other things,
            the method for estimating the number of jobs created and retained. The guidance
            states that the estimate of the number of jobs created or retained by the Recovery
            Act should be expressed as “full time equivalents.” To avoid overstating the
            number of other than full-time permanent jobs, OMB provided a formula for FTE
            calculation that converts part-time or temporary jobs into fractional FTE. The
            formula calculates FTEs using the total number of hours worked on the Recovery
            Act-funded project during the reporting quarter divided by the total number of
            hours in a full-time schedule for the quarterly.

            Although GH submitted quarterly reports under Section 1512 of the Recovery
            Act, after numerous requests, it was unable to provide detailed calculations or
            supporting documentation. As a result, we are unable to verify whether the
            number of jobs GH reported as created and retained were accurate and in
            accordance with Section 1512 requirements, as supplemented by OMB guidance.

Recommendation
            We recommend that the Region 7 regional administrator:

               3.	 Verify that the recipient reported the number of jobs created and retained
                   in accordance with the requirements of Recovery Act Section 1512 and
                   the guidance issued by OMB.




13-R-0367                                                                                   21
Recipient Comments
            GH disagreed with our recommendation. GH believed its final report showed
            substantial compliance with the Recovery Act job reporting requirements.
            GH stated that the final report set out the estimated FTEs funded at GH and the
            project partners based on participation estimates and vendor letters and emails.
            GH also said it followed the EPA’s guidance to not use formulas, such as the
            Manufacturers of Emission Controls Association formula, to estimate the number
            of jobs created or retained. GH’s complete written response is included in
            appendix A.

OIG Response
            Our position on this issue remains unchanged. We agree that the Manufacturers of
            Emission Controls Association formula referenced by the EPA is not an
            acceptable method for calculating jobs created or retained under the Recovery
            Act. OMB guidance documents were issued to implement the Recovery Act
            requirements. As stated in the draft report, OMB Guidance M-10-8 specified the
            method for estimating the number of jobs created and retained. According to the
            guidance, the number of jobs created and retained is to be expressed in terms of
            FTEs and are to be calculated using the total number of hours worked on the
            Recovery Act-funded project during the reporting quarter divided by the total
            number of hours in a full-time schedule for the quarter. GH did not provide the
            required supporting calculations. Therefore, we are unable to determine whether
            GH reported the jobs created and retained according to OMB guidance. Details of
            our responses to GH’s comments are in appendix B.




13-R-0367                                                                                 22
                                   Chapter 6

                   Meeting the Objective of the CA
            We are unable to determine whether GH met the objective of the CA. The CA was
            awarded to install emissions reduction technology on various vehicles to reduce air
            pollution in the St. Louis region. In the final progress report submitted to the EPA
            on October 12, 2011, GH reported that it had completed substantially all work
            under the final CA workplan. GH also reported that the work completed provided
            an annual emission reduction of 960 tons, exceeding the expected reduction of
            809 tons. We verified that the correct technology was installed on the items
            available for inspections, but we were unable to express an opinion as to whether
            GH met the objective of the CA due to the following:

                   Lack of adequate verifiable details in GH’s final progress report.
                   Not all vehicles were available for inspection during our site visits.
                   GH did not consistently document work completion verifications.

Lack of Adequate Verifiable Details in Final Progress Report
            GH’s final progress report submitted to the EPA did not include adequate details
            identifiable to the retrofitted vehicles. As part of the final progress report, GH
            provided a final fleet list—a listing of all vehicles GH retrofitted under the CA.
            However, the list did not include vehicle identification information. The final fleet
            list identified and grouped items by equipment class and engine type. An
            equipment class (or one line item in the report) may consist of 1 vehicle or over
            50 vehicles. GH did not have supporting listings for the equipment class grouping
            or a complete listing of equipment with vehicle identification information that
            could facilitate physical inspections of the retrofitted vehicles. When asked, GH
            representatives said that the vehicle identification information was attached to the
            invoices. Based on our review of the documentation provided by GH, although
            many of the invoices included a listing of vehicle identification numbers, these
            VINs do not always correspond to equipment class groupings. GH also did not
            provide a complete listing of all VINs. In our opinion, GH is responsible for
            providing the necessary data to demonstrate work completion and facilitate
            verifications by the government.

Not All Retrofitted Vehicles Were Available for Inspection

            Not all of the vehicles retrofitted under the CA were available for inspection. We
            made attempts to obtain a reasonable assurance about whether the work under the
            CA was completed by conducting three site visits. These site visits were to verify
            retrofit of school buses, a tugboat, and airport vehicles.




13-R-0367                                                                                     23
            For our visit to the school bus yard, because we did not have a complete listing of
            all school buses retrofitted, we pre-selected buses from contractor invoices for
            inspection. However, when we arrived at the site, we learned that several factors
            made locating the pre-selected sample items extremely difficult. Some of the
            vehicles were out running the routes. Buses that were not scheduled for routes were
            randomly parked at the various bus yards. As a result, the only verification we were
            able to perform was walking through the bus yard and verifying that the correct
            technology was installed on the buses located at the yard. The same verification
            was performed during the airport site visit. We were advised that due to safety
            concerns and vehicle work schedules, our inspection of the vehicles would be
            limited to those units not deployed for service on the airport grounds.

            The tugboat we selected for testing was not available for inspection until our final
            exit conference on July 11, 2013. Upon inspection, we found that the technology
            installed matched the contract and the bid documents, but not the project partner
            invoice. GH said it will work with the project partner to provide a satisfactory
            explanation to the EPA during audit resolution.

            Due to these issues, we were unable to obtain a reasonable assurance that the
            vehicles reported as completed actually existed and had been retrofitted.

GH Did Not Consistently Document Work Completion Verification
            GH did not consistently document work completion verification. According to GH
            management, GH verified all contractor invoices for work completion with the
            project partners prior to making payments. Verification was either through site
            visits or telephone calls to project partners. When conducting site visits, instead of
            verifying a random selection of vehicles from the invoices, GH’s staff would walk
            through the site and only verify what they saw. This method of verification did not
            provide assurance that all vehicles invoiced actually existed and were retrofitted
            since GH did not select items for verification from the complete universe (i.e., all
            items listed in the invoice). It only verified whether the vehicles at the site were
            completed according to specification. Furthermore, under either verification
            method (site visit or telephone call), GH did not maintain evidence to document
            actual vehicles verified.

            According to GH management, GH’s contractor invoice payment packages should
            contain a Contractor Invoice Submission form. The form is required to be
            completed and attached to the check request for contractor invoice payments. The
            form includes a summary of the contractors work, date and signature of GH’s
            project manager inspection of work, and date and signature of the fleet manager or
            designee accepting the work. However, we identified invoice payments of
            $930,508 or 398 vehicles for which GH did not provide the Contractor Invoice
            Submission form. The $930,508 represents at least part of 8 of the 10 contract
            awarded under the CA.




13-R-0367                                                                                      24
Conclusion
            Although we were able to verify that the appropriate technology was installed on
            the limited number of vehicles available for inspections, we were unable to
            determine whether the vehicles reported as completed actually existed and were
            retrofitted. As a result, we are unable to express an opinion as to whether GH met
            the objective of the CA.

            The fact that GH was unable to provide evidence that it consistently verified the
            work completion raised a question about the reliability of the information reported.
            EPA Region 7 staff also had concerns about the reliability of the data submitted by
            GH in its October 12, 2011, final progress report based on their cursory review of
            the data. As a result, Region 7 has advised GH to revise and resubmit the report to
            include a complete listing of the VINs for the vehicles retrofitted.

Recommendation
            We recommend that the Region 7 regional administrator:

               4.	 Verify that vehicles GH reported as retrofitted under the CA were
                   complete and retrofitted in accordance with the workplan requirements.

Recipient Comments
            GH disagreed with our recommendation. GH stated that it prepared the final
            report and final fleet list in accordance with instructions. As part of the draft
            response, GH provided the verification details for the equipment on the fleet lists
            submitted with the final report. GH said the fleet list verification details
            demonstrated that there is no reasonable basis for doubting whether GH met the
            objectives of the CA.

            GH also stated that there is no requirement to make all retrofitted units available
            for inspection during site visits or for the recipient to verify work completion.
            GH explained that the vehicles were not all available for inspection because of
            their service schedules, which GH had no control over. GH acknowledged that the
            tugboat we selected for testing was not initially made available for inspection due
            to misunderstanding about the site visit arrangement. The tugboat was later made
            available for inspection at the time of our final exit conference on July 11, 2013.
            Furthermore, GH acknowledged that the contractor invoice payment packages
            were developed midway through the project and was not used in the earlier
            payments.

            GH’s complete written response is included in appendix A.




13-R-0367                                                                                     25
OIG Response
            Our position on this issue remains unchanged. Although GH provided the vehicle
            identification details for the fleet lists as part of its draft response, this information
            was not available for sample selection during our fieldwork. Since our fieldwork
            phase has already passed, the new information provided by GH will not affect our
            position on the issue.

            We disagree with GH’s statement that there is no requirement to make all
            retrofitted units available for inspection or for the recipient itself to verify work
            completion. Recovery Act Section 1515, as incorporated into administrative
            condition 17 of the CA, requires the recipient to allow any appropriate
            representative of the OIG to examine any records of the recipient, any of its
            procurement contractors and subcontractors that pertain to, and involve
            transactions relating to the grant. Based on our interpretation of this requirement,
            we believe GH is required to make the retrofitted units available for inspection.

            Programmatic condition 11 of the CA also states that the work under the CA must
            be completed in accordance with the approved workplan. Item 5 of the workplan
            states that GH will assure retrofits are ordered, installed and maintained in a
            timely manner. Without some form of verification, GH would not be able to
            provide this assurance. Furthermore, the final report is GH’s representation to the
            EPA that it had completed all of the tasks under the agreement. It is GH’s
            responsibility to ensure that its final representation is accurate, complete, and
            properly supported.

            In connection with the consistency in work completion verification, GH
            acknowledged that invoice payment packages verification was not done for the
            earlier payments. No additional comment is needed from the OIG.

            Details of our responses to GH’s comments are in appendix B.




13-R-0367                                                                                          26
                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                              POTENTIAL
                                                                                                                           MONETARY BENEFITS
                                                      RECOMMENDATIONS                                                          (in $000s)

                                                                                                               Planned                Agreed
Rec.      Page                                                                                                Completion    Claimed     To
No.        No.                              Subject                               Status1   Action Official      Date       Amount    Amount

 1          7     Disallow $1,615,343 in questioned costs and recover               U         Regional                       $1,615
                  $1,423,028 of that amount under the CA. If GH provides                    Administrator,
                  documentation that meets appropriate federal                                Region 7
                  requirements or demonstrates the fairness and
                  reasonableness of the contract prices, the amount to be
                  recovered may be adjusted accordingly.

 2         18     Verify, prior to any future EPA award, that the recipient has     U         Regional
                  adequate controls to ensure that:                                         Administrator,
                   a) Procurement practices comply with federal                               Region 7
                      regulations and the company’s own procedures.
                   b) Contract personnel have adequate federal
                      procurement knowledge.
                   c) Contract and bid information are accurate and
                      complete.
                   d) Unallowable costs are properly segregated and
                      financial management data are properly supported.
                   e) Labor charges comply with federal requirements.
                   f) Cash draws meet immediate cash needs and
                      documentation requirements.

 3         21     Verify that the recipient reported the number of jobs             U         Regional
                  created and retained in accordance with the requirements                  Administrator,
                  of Recovery Act Section 1512 and the guidance issued by                     Region 7
                  OMB.

 4         25     Verify that vehicles GH reported as retrofitted under the         U         Regional
                  CA were complete and retrofitted in accordance with the                   Administrator,
                  workplan requirements.                                                      Region 7




       O = recommendation is open with agreed-to corrective actions pending
       C = recommendation is closed with all agreed-to actions completed
       U = recommendation is unresolved with resolution efforts in progress




13-R-0367                                                                                                                                27
                                                                                      Appendix A



                GH’s Comments on the Draft Report
Due to the length of the recipient’s comments and the need to redact the sensitive information in
the comments, appendix A is presented in a separate file. See the following link:

www.epa.gov/oig/reports/2013/20130830-13-R-0367_appendix A.pdf




13-R-0367                                                                                      28
                                                                                      Appendix B


                    OIG Evaluation of GH Comments
Due to the length of the recipient’s comments and the need to redact the sensitive information in
the comments, appendix B is presented in a separate file. See the following link:

www.epa.gov/oig/reports/2013/20130830-13-R-0367_appendix B.pdf




13-R-0367                                                                                      29
                                                                       Appendix C
                                    Distribution
Regional Administrator, Region 7 

Deputy Regional Administrator, Region 7 

Director, Grants and Interagency Agreements Management Division, 

       Office of Administration and Resources Management 

Agency Follow-Up Official (the CFO) 

Agency Follow-Up Coordinator 

Audit Follow-Up Coordinator, Region 7 

Grants Management Officer, Region 7 

Public Affairs Officer, Region 7 

Director, Air and Waste Management Division, Region 7 

Chief, Air Planning Branch, Air and Waste Management, Region 7 

President and Chief Executive Officer, Grace Hill Settlement House 





13-R-0367                                                                     30
